OFFICE OF AUDIT
REGION 8
DENVER, CO




               CARE Housing, Inc., Fort Collins, CO

         Community Housing and Development
      Organization HOME and CDBG Grant Funds




2013-DE-1002                                      August 13, 2013
                                             U.S. DEPARTMENT OF
                          HOUSING AND URBAN DEVELOPMENT
                                     OFFICE OF INSPECTOR GENERAL




                                                                        Issue Date: August 13, 2013

                                                                        Audit Report Number: 2013-DE-1002

TO:            LeRoy Brown, Director, Denver Office of Community Planning and
               Development, 8AD


               //signed//
FROM:          Ronald J. Hosking, Regional Inspector General for Audit, Denver Region, 8AGA


SUBJECT:       A Hotline Complaint About CARE Housing, Inc., Fort Collins, CO, Was Not
               Substantiated


       Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG) final results of our review of the hotline complaint about CARE
Housing, Inc.’s use of its grant funds for the Provincetowne project and whether it accurately
represented itself as an eligible community housing development organization.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
913-551-5872.




                                                Office of Audit Region 8
                                   1670 Broadway, 24th Floor, Denver, CO 80202
                                      Phone (303) 672-5452, Fax (303) 672-5006
                          Visit the Office of Inspector General Web site at www.hudoig.gov.
                                            August 13, 2013
                                            A Hotline Complaint About CARE Housing, Inc., Fort
                                            Collins, CO, Was Not Substantiated




Highlights
Audit Report 2013-DE-1002


 What We Audited and Why                          What We Found

We reviewed the allegations contained in          We found no evidence to substantiate the
a hotline complaint against CARE                  allegations. CARE was an eligible CHDO at
Housing, Inc., Fort Collins, CO, to               the time it received its HOME Investment
determine whether CARE accurately                 Partnerships Program grant funds. Also, CARE
represented itself as an eligible                 properly used grant funds for the Provincetowne
community housing development                     housing project.
organization (CHDO) and whether it used
its grant funds for the Provincetowne
project in accordance with applicable
rules and regulations.

 What We Recommend

This report contains no formal
recommendations, and no further action
is necessary. The auditee did not provide
comments.
                            TABLE OF CONTENTS

Background and Objective                                                          3

Results of Audit                                                                  4
      CARE Housing, Inc., Fort Collins, CO, Met the Requirements of an Eligible
      CHDO and Properly Developed Its Provincetowne Project

Scope and Methodology                                                             5

Internal Controls                                                                 6




                                            2
                      BACKGROUND AND OBJECTIVE

Established in 1992, CARE Housing, Inc., develops and manages affordable housing
communities that provide supportive services to strengthen and empower families and build
community. Since that time, CARE has grown in the Fort Collins community with a mission to
advocate for and provide affordable housing to low-income working families.

CARE is a unique partnership of public, private, and religious sponsorship with expertise in
housing finance, development, property management, and social service. Through these
collaborative partnerships, CARE has successfully developed five affordable housing
communities in Fort Collins, CO, and one in Windsor, CO.

The Office of Inspector General (OIG) received a confidential hotline complaint and conducted
an audit to determine whether there was sufficient information to substantiate the complaint.
The complainant alleged that Care was not an eligible community housing development
organization (CHDO) and did not follow proper procedures when it procured the services of a
general contractor.

Our objective was to determine whether CARE accurately represented itself as an eligible
CHDO and whether it used its grant funds for the Provincetowne project in accordance with
applicable rules and regulations.




                                                3
                                RESULTS OF AUDIT


CARE Housing, Inc., Fort Collins, CO, Met the Requirements of an Eligible
CHDO and Properly Developed Its Provincetowne Project

We reviewed the allegations contained in a hotline complaint that CARE was not an eligible
CHDO at the time it received its HOME Investment Partnerships Program funds and did not
follow proper procedures when it procured the services of a general contractor. Additionally, we
reviewed CARE’s use of HOME and Community Development Block Grant (CDBG) funds. We
found no evidence to substantiate the allegations. The significant allegations made in the
complaint and the results of our review of those allegations are detailed as follows:

      The complainant alleged that CARE was not an eligible CHDO at the time it received its
       HOME funds. CARE met all of the legal requirements of a CHDO at the time it received
       its HOME funds. The City of Fort Collins certified CARE to operate and receive grant
       funds, as needed, as a CHDO. CARE accurately represented itself as an eligible CHDO
       when it received its City of Fort Collins, State of Colorado, and U.S. Department of
       Housing and Urban Development (HUD) grant funds. CARE had an approved CHDO
       certification as of 2008. Additionally, CARE met the capacity and experience
       requirements of a CHDO as outlined in the requirements. CARE ensured that it had the
       appropriate amount of personnel to fulfill the needs of the nonprofit low- to moderate-
       income housing. CARE maintained at least one-third of its board of directors for
       residents of low-income neighborhoods, other low-income community residents, or
       elected representatives of low-income neighborhood organizations. Finally, CARE
       conformed to the financial accountability standards as shown in an independent auditor’s
       report.

      The complainant alleged that CARE did not follow proper procurement procedures.
       CARE acted as a developer and was not required to competitively bid the project. In
       addition, CARE spent the CDBG and HOME funds on costs that could only be provided
       by a single source; therefore, a competitive process was not needed.
           o CARE received two regular HOME grants ($631,715), two HOME CHDO grants
               ($253,046), and four CDBG grants ($550,000) to assist in the construction of the
               Provincetowne development. We analyzed the HOME and CDBG grants and
               determined that CARE used the funds on eligible expenses. Specifically, CARE
               used the funds for water tap fees, city electric tap fees, and site development
               costs.

 Recommendations

       This report contains no recommendations, and no further action is necessary.




                                               4
                                                 
                         SCOPE AND METHODOLOGY

We performed our onsite audit work at the CARE office at 1303 West Swallow Road, Building
11, Fort Collins, CO, from February 13 through 22, 2013. The audit covered the period January
1, 2009, through December 31, 2012.

To accomplish our objective, we interviewed pertinent CARE, City of Fort Collins, State of
Colorado, and HUD staff and reviewed

      Applicable Federal regulations and HUD requirements;
      CARE’s and the City of Fort Collins’ CHDO certification documentation;
      CARE’s contractor selection documentation;
      CARE’s, the City of Fort Collins’, the State of Colorado’s, and HUD’s grant
       documentation; and
      CARE’s board of directors minutes, board roster, and other associated documentation.

We reviewed all of CARE’s grant funds associated with the Provincetowne development project.
We reviewed all documentation pertaining to the contractor selection for the Provincetowne
development. Lastly, we reviewed all of CARE’s CHDO documentation and any other
documentation associated with its certification.

We did not rely on computer-processed data for our audit. We traced or verified the supporting
documentation to draw our conclusions about the allegations.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our conclusions based on our
audit objective.

The auditee agreed with the report and chose not to provide comments to this final report.




                                                5
                                                 
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                     Controls over expenditure of grant funds.
                     Controls over maintaining CHDO eligibility requirements.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We evaluated internal controls related to the audit objective in accordance with
               generally accepted government auditing standards. Our evaluation of internal
               controls was not designed to provide assurance regarding the effectiveness of the
               internal control structure. Accordingly, we do not express an opinion on the
               effectiveness of CARE’s related internal controls.




                                                 6
                                                   
